               OFFICE OF
               INSPECTOR
               GENERAL
               UNITED STATES POSTAL SERVICE




      Postal Service Five-Year Financial
                     Plan

               Management Advisory




                                              August 18, 2011

Report Number FT-MA-11-004
                                                                        August 18, 2011

                                              Postal Service Five-Year Financial Plan

                                                         Report Number FT-MA-11-004




IMPACT ON:
The U.S. Postal Service’s April 2011           could not support savings from the
Five-Year Financial Plan to overcome           closure of Post Offices and were not
obstacles and return to profitability.         aware of the methodology or
                                               assumptions used to calculate the
WHY THE OIG DID THE REVIEW:                    estimate. Therefore, the Postal Service
Our objective was to evaluate the              had to prepare a revised estimate of the
reasonableness of assumptions used to          savings. (4) Management included the
create the Five-Year Financial Plan.           Postal Service’s estimated savings
                                               related to implementation of 5-day
WHAT THE OIG FOUND:                            delivery and did not consider the impact
Overall, the assumptions used in the           of its difference with the Postal
Postal Service’s Five-Year Financial           Regulatory Commission’s estimate. (5)
Plan are reasonable. However, we did           The OIG has identified other cost-saving
note some areas to consider for future         opportunities with significant potential
plan updates: (1) Overall revenue has          monetary impact that were not
fallen below expected levels projected in      considered in the plan.
the plan; however, although noted,
declining revenue trends were not              WHAT THE OIG RECOMMENDED:
incorporated into the numerical                We are providing this information to
projections of the plan. (2) The plan          assist the Postal Service in improving
includes various marketing initiatives to      future updates to its Five-Year Financial
generate future additional revenue.            Plan. As a result, we are not making any
Management revised their performance           recommendations.
measurement methodology for these
initiatives. These revisions, together with    WHAT MANAGEMENT SAID:
recent volume and revenue trends and           Since we are not making any
the recent organizational re-design,           recommendations, management chose
could affect future revenue projections        not to formally respond to this report.
from these marketing initiatives. (3) At
the time of our data request, personnel        Link to review the entire report
August 18, 2011

MEMORANDUM FOR:            STEPHEN J. MASSE
                           VICE PRESIDENT, FINANCE AND PLANNING




FROM:                      John E. Cihota
                           Deputy Assistant Inspector General
                            for Financial Accountability

SUBJECT:                   Management Advisory – Postal Service
                           Five-Year Financial Plan (Report Number FT-MA-11-004)

This report presents the results of our review of the U.S. Postal Service’s Five-Year
Financial Plan (Project Number 11BM001FT002).

We appreciate the cooperation and courtesies provided by your staff. If you have any
questions or need additional information, please contact Lorie K. Nelson, director,
Financial Reporting, or me at 703-248-2100.

Attachments

cc: Patrick R. Donahoe
    Joseph Corbett
    Cynthia Sanchez-Hernand
    Anthony E. Mazzei
    Corporate Audit and Response Management
                                               TABLE OF CONTENTS

Introduction ..................................................................................................................... 1

Conclusion ...................................................................................................................... 1

Postal Service’s Five-Year Financial Plan ....................................................................... 1

Recommendation ............................................................................................................ 3

Appendix A: Additional Information ................................................................................. 4

   Background ................................................................................................................. 4

   Objective, Scope, and Methodology ............................................................................ 4

   Prior Audit Coverage ................................................................................................... 5
Postal Service Five-Year Financial Plan                                                                FT-MA-11-004




Introduction

This report presents the results of our review of the U.S. Postal Service’s Five-Year
Financial Plan, dated April 2011 (Project Number 11BM001FT002).1 This review was
conducted at the request of Postal Service management. The objective of our review
was to evaluate the reasonableness of assumptions used to create the plan. The plan’s
components include Management’s Plan, Additional Management Initiatives, and
Legislative Changes. Management drafted the Five-Year Financial Plan in response to
the Postal Service’s recent economic hardship. This review addresses financial risk.
See Appendix A for additional information.

The Postal Service continues to face considerable financial challenges due to the recent
economic recession, the diversion of letter mail to electronic alternatives, and the
legislative requirement to fund future postal retiree health benefits. In June of 2011,
management suspended employer contributions to the Office of Personnel
Management for the defined benefit portion of the Federal Employees Retiree System
funding requirement. Management also anticipates it will have insufficient funds to meet
its prefunding requirements for retiree health benefits due September 30, 2011. It also
anticipates having a critically low level of cash and liquidity by the middle of October
2011, when it is required to make a payment on its workers’ compensation obligation.
Management developed this Five-Year Financial Plan to illustrate how the Postal
Service proposes to overcome these obstacles and return it to profitability.

Conclusion

Overall, the assumptions used in the Postal Service’s Five-Year Financial Plan are
reasonable. However, we did note some areas the Postal Service should consider when
updating future plans.

Postal Service’s Five-Year Financial Plan

Based on our review of the Postal Service’s Five-Year Financial Plan, we believe the
information presented was generally reasonable. Management presented the Plan to
congress in support of its March 2, 2011, testimony presented to the Subcommittee on
Federal Workforce, U.S. Postal Service, and Labor Policy of the Committee on
Oversight and Government Reform, U.S. House of Representatives. Should the Postal
Service use this or a similar plan in the future, we noted the following items for
consideration.
 Overall revenue has fallen below expected levels projected in the plan. Specifically,
    fiscal year (FY) 2011 revenue through the second quarter was $941 million (or
    3 percent) less compared to the same period last year; and $664 million (or
    2 percent) below forecasted revenue contained in the Five-Year Financial Plan.

1
 The official name of the document is USPS Five-Year Financial Plan. It is hereafter referred to as the Five-Year
Financial Plan or the Plan. This Plan is one of several the Postal Service prepared during FY 2011 and includes its
own set of assumptions.


                                                          1
Postal Service Five-Year Financial Plan                                        FT-MA-11-004



    Management anticipated a revenue shortfall and included a statement in the
    narrative section of the Plan, but did not incorporate recent declining revenue trends
    into the numerical projections of the Plan. Management informed us that the revenue
    projections they used were designed to be more optimistic than recent trends. We
    believe management should consider incorporating declining revenue trends into
    future updates of the Plan or, as appropriate, consider including information such as
    the achievability of the projections to add perspective to the readers.

   The Plan includes various marketing initiatives to generate future additional revenue.
    During the course of our review, management revised their methodology to measure
    performance from these initiatives against their respective target revenue goals.
    Management should consider the potential effect of these revised measurement
    methods on future revenue projections from these marketing initiatives. Additionally,
    similar to updating revenue trends, future target revenue plans should reflect
    updated volume and revenue trends and the impact of the recent organizational re-
    design, as these recent developments may have a significant impact on the outlook
    of revenue targets.

   At the time of our data request, personnel could not support the $1.551 billion
    savings from the closure of Post Offices and were not aware of the methodology or
    assumptions used to calculate the estimate. Therefore, management prepared a
    revised estimate of $1.485 billion. Management should maintain adequate
    supporting documentation for the Plan and other critical estimates to ensure
    credibility and avoid expending valuable time and resources to re-create.

   Management included $3.0 billion in annual savings based on implementing 5-day
    delivery, beginning in year 2 of execution. The Postal Regulatory Commission (PRC)
    estimated $1.7 billion will be achieved beginning in year 3. The Postal Service and
    the PRC used different methodologies to reach their estimated savings and both
    parties presented extensive analysis in support of their respective calculations.
    Management did not consider the impact of the $1.3 billion difference in the Plan.
    They stated their plan should include their estimates and did not believe the
    difference would significantly alter the result. We believe discussion on the impact of
    the difference could provide additional perspective to stakeholders.

   The U.S. Postal Service Office of Inspector General (OIG) has identified cost-saving
    opportunities with significant potential monetary impact in recent audit reports.
    Management should consider incorporating these and other future cost-saving
    opportunities identified by the OIG or other organizations (for example, the
    Government Accountability Office) into future updates of the plan.




                                             2
Postal Service Five-Year Financial Plan                                       FT-MA-11-004



Recommendation

We are providing this information to assist the Postal Service in improving future
updates to the Five-Year Financial Plan. As a result, we are not making any
recommendations.




                                            3
Postal Service Five-Year Financial Plan                                                               FT-MA-11-004



                                 Appendix A: Additional Information

Background

In recent years, the Postal Service has faced unprecedented challenges. It has
experienced a substantial reduction in mail volume resulting from a major recession the
nation recently confronted and from diversion of letter mail to electronic alternatives.
The effect of these two conditions has been a substantial drop in revenue, resulting in
the Postal Service facing dire financial circumstances.

The Postal Service prepared an action plan titled the USPS Five-Year Financial Plan –
April 2011 to illustrate the current financial situation and how future activities may
impact the Postal Service’s financial condition. The Five-Year Financial Plan includes:

   A management plan with actions underway or that management can take to
    increase revenue and reduce expenses.

   Additional management initiatives addressing cost reductions that are within
    management’s authority but might require support from others, including labor
    organizations and other stakeholders.

   Legislative changes requiring revisions to statutes to reduce costs and recover
    overpayments related to employee retirement.

Management based the Five-Year Financial Plan on its 2011 Integrated Financial Plan 2
released in November 2010. The Five-Year Financial Plan incorporates changes in the
economic outlook and reflects changes in assumptions since March 2010,3 primarily in
areas where further management actions or assumed negotiated settlements affected
the 5-year outlook. Nonetheless, the Five-Year Financial Plan recognizes the risks of
uncertainty associated with forecasting.

Management presented the Five-Year Financial Plan to congress in support of its
March 2, 2011, testimony presented to the Subcommittee on Federal Workforce, U.S.
Postal Service, and Labor Policy of the Committee on Oversight and Government
Reform, U.S. House of Representatives.

Objective, Scope, and Methodology

The objective of our review was to evaluate the reasonableness of assumptions used to
create the Five-Year Financial Plan. To address our objective, we:

   Reviewed baseline projections for revenue and expenses, revenue growth initiatives,
    and cost-reduction initiatives.
2
  The Integrated Financial Plan consists of the operating, capital, and financing plans for FY 2011.
3
  On March 2, 2010, the Postal Service released its Action Plan for the Future. With an emphasis on the plans to be
implemented during the next 5 years, management refreshed the financial analysis of the 2010 Action Plan and
completed their 2011 Five-Year Financial Plan.


                                                         4
Postal Service Five-Year Financial Plan                                                                  FT-MA-11-004




   Obtained explanations and support for the Five-Year Financial Plan from
    management.

   Evaluated related documentation to include the PRC’s Advisory Opinion on
    Elimination of Saturday Delivery and the Postal Service’s response to that opinion.

   Assessed the reasonableness of retirement benefit amounts in the Five-Year
    Financial Plan’s requested legislative changes.

   Assessed the reasonableness of amounts presented in the management plan and
    additional management initiatives.

   Evaluated additional potential legislative changes to determine whether they merit
    inclusion in the Five-Year Financial Plan.

We conducted this review from April through August 2011 in accordance with the
Council of the Inspectors General on Integrity and Efficiency, Quality Standards for
Inspection and Evaluation. We discussed our observations and conclusions with
management on August 2, 2011. We did not rely on computer-generated data.

Prior Audit Coverage

The OIG reported on a study4 by the George Mason University School of Public Policy
(GMU) that examined the financial sustainability of the Postal Service under various
volume scenarios. GMU’s study concluded the Postal Service would need to raise
prices above the rate of inflation to achieve breakeven at 150 billion, 125 billion, and
100 billion pieces. Down to 100 billion, the price increase needed to break even would
raise prices to a level that is substantially lower than the highest prices observed in
developed countries. Therefore, the Postal Service would be financially sustainable
down to 100 billion pieces. The criterion for sustainability does not state whether the
Postal Service would be sustainable below 100 billion pieces. Further, the study
concluded that assuming volume continues to decline to the levels examined, the
current Postal Accountability and Enhancement Act of 2006 price caps will not permit
the Postal Service to remain financially sustainable.




4
 Implications of Declining Mail Volumes for the Financial Sustainability of the Postal Service (Report
Number RARC-WP-10-006, dated September 29, 2010).


                                                           5
